CAPITAL CASE
No. 20-1686
IN THE

Supreme Court of the United States
BOBBY LEE HAMPTON,
Petitioner,
v.
DARREL VANNOY, WARDEN
Respondent.
ON PETITION FOR A WRIT OF CERTIORARI
TO THE FIRST JUDICIAL DISTRICT COURT OF
CADDO PARISH, LOUISIANA

CERTIFICATE OF SERVICE
I, Seth P. Waxman, a member of the bar of this Court, hereby certify that, on
this 24th day of August, 2021, all parties required to be served have been served copies
of the Reply Brief for Petitioner in this matter by overnight courier to the address
below.
SHAE GARY MCPHEE JR.
Counsel of Record
LOUISIANA DEPARTMENT OF JUSTICE
1885 N 3rd St.
Baton Rouge, LA 70802
(225) 938-0779
mcphees@ag.louisiana.gov

SETH P. WAXMAN
Counsel of Record
WILMER CUTLER PICKERING
HALE AND DORR LLP
1875 Pennsylvania Avenue NW
Washington, DC 20006
(202) 663-6000
seth.waxman@wilmerhale.com

